                      AUDIT REPORT

Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform
                  Federal Information Technology Management‖


                      OIG-13-A-09         January 23, 2013




   All publicly available OIG reports (including this report) are accessible through
                                 NRC‘s Web site at:
                http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          January 23, 2013



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S PROGRESS IN CARRYING OUT THE
                            “25 POINT IMPLEMENTATION PLAN TO REFORM
                            FEDERAL INFORMATION TECHNOLOGY MANAGEMENT”
                            (OIG-13-A-09)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Progress in Carrying Out the “25 Point Implementation Plan to Reform Federal
Information Technology Management.”

The report presents the results of the subject audit. Following the December 18, 2012,
exit conference, agency staff indicated that they had no formal comments for inclusion
in this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Team,
at 415-5911.3

Attachment: As stated
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




Executive Summary

         Background

                  The U.S. Nuclear Regulatory Commission (NRC) invests in a broad range
                  of information technology (IT) products and services to perform its
                  mission. Some IT investments support business activities such as
                  financial, administrative, and human resource management. Others
                  support core regulatory activities related to nuclear security, reactor
                  safety, and nuclear materials and waste safety. In addition, investments
                  such as IT security and infrastructure services support activities across
                  NRC‘s organizational lines. Despite rapidly changing IT security threats
                  and increased reliance on IT to accomplish the agency‘s mission, NRC
                  faces the Governmentwide challenge of declining budgets. For example,
                  NRC spent $164.7 million on IT in Fiscal Year (FY) 2011, but has
                  budgeted $151.4 million for IT in FY 2013—a decline of approximately 8
                  percent.

                  As a representative of the Office of Management and Budget (OMB), the
                  U.S. Chief Information Officer (CIO) has encouraged NRC and other
                  Federal agencies to ―do more with less.‖ In December 2010, the U.S. CIO
                  promulgated the ―25 Point Implementation Plan to Reform Federal
                  Information Technology Management‖ (25-Point Plan).1 The 25-Point
                  Plan tasked NRC and other agencies with undertaking specific
                  management reforms and policy changes within 6-, 12-, and 18-month
                  timeframes.2 NRC—by itself or in conjunction with other Federal agencies
                  and OMB—was responsible for carrying out the following 10 action items:

                            Action Item 1: Complete detailed implementation plans to
                            consolidate 800 data centers by 2015.




1
 For a complete list and indepth discussion of these initiatives, reference the ―25 Point Implementation
Plan to Reform Federal Information Technology Management,‖ U.S. Chief Information Officer, December
9, 2010.
2
 The 25-Point Plan assigns responsibility for some initiatives to the General Services Administration,
Small Business Administration, Office of Personnel Management, and OMB.

                                                             i
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                            Action Item 3: Shift to a ―Cloud First‖3 policy.

                            Action Item 8: Scale IT program management career path.

                             Action Item 13: Design and develop a cadre of specialized IT
                            acquisition professionals.

                            Action Item 17: Work with Congress to create IT budget models
                            that align with modular development.

                            Action Item 19: Work with Congress to scale flexible IT budget
                            models more broadly.

                            Action Item 20: Work with Congress to consolidate commodity IT4
                            spending under the agency CIO.

                            Action Item 21: Reform and strengthen Investment Review Boards.

                            Action Item 22: Redefine the role of agency CIO and the Federal
                            CIO Council.

                            Action Item 23: Roll out ―TechStat‖5 model at the bureau level.

                  NRC Organizations Responsible for Carrying Out the 25-Point Plan

                  Several offices have participated in responding to 25-Point Plan action
                  items. NRC‘s Office of Information Services has played an active role,
                  particularly in response to action items focused on IT infrastructure
                  planning and budgeting. The Office of Administration has played a role in
                  action items pertaining to contracting and acquisitions. Lastly, NRC‘s


3
  ―Cloud‖ computing aims to enable convenient, on-demand access to a shared pool of computing
resources such as networks, servers, applications, storage, and services. The National Institute of
Standards and Technology identifies the following essential cloud features: on-demand service, broad
network access, resource pooling, rapid elasticity, and measured service.
4
 ―Commodity IT‖ refers to generic products and services such as e-mail, content management systems,
and Web infrastructure.
5
  ―TechStat‖ reviews are evidence-based evaluations designed to identify IT program weaknesses and
develop plans for improvement. TechStat reviews can also help identify failed IT programs for early
termination.

                                                             ii
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  Deputy Executive Director for Corporate Management serves as the
                  agency‘s Chief Information Officer, and oversees the agency‘s IT strategic
                  planning.

Objective

                  The audit objective was to evaluate NRC‘s progress in carrying out the ―25
                  Point Implementation Plan to Reform Federal Information Technology
                  Management.‖ Appendix A contains information on the audit scope and
                  methodology.

Results in Brief

                  OIG auditors evaluated NRC‘s performance in carrying out the 10 action
                  items for which the agency was responsible. Based on this work, auditors
                  concluded that NRC had met its obligations for these action items, but
                  developed findings and recommendations to improve the agency‘s IT
                  management in areas related to the following three action items:

                  Action Item 21 (IT Investment Review Boards) Finding:

                             NRC does not review performance of non-major IT investments,
                              as defined by OMB.

                  Action Item 13 (IT acquisition cadres) Finding:

                             NRC has specialized IT acquisition professionals, but has not
                              institutionalized current training and retention best practices.

                  Action Item 1 (Data center consolidation) Findings:

                             NRC does not include all data centers in consolidation plans.

                             NRC did not perform alternatives analysis for the 3WFN data
                              center.




                                                             iii
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  NRC Does Not Review Performance of Non-Major IT Investments, as
                  Defined by OMB

                  OMB has directed Federal agencies to apply the TechStat model to review
                  performance of IT investments. NRC has implemented TechStat, but only
                  uses it to review major IT investments as defined by OMB. NRC does not
                  apply the TechStat model to non-major IT investments because the
                  agency has recently restructured its Investment Review Boards, and the
                  initial TechStat focus has been placed on major IT investments, which are
                  fewer in number and higher in total value than non-major IT investments.
                  Consequently, without reviewing non-major IT investments, NRC may
                  miss opportunities to improve performance and cost-effectiveness of these
                  investments.

                  NRC Has Specialized IT Acquisition Professionals, but Has Not
                  Institutionalized Current Training and Retention Best Practices

                  OMB has directed Federal agencies to design and develop a cadre of
                  specialized IT acquisition professionals by providing specific training, on-
                  the-job experience, and mentoring. Although NRC has a branch of IT
                  acquisition specialists who are encouraged to pursue training in this field,
                  NRC has not institutionalized current training and retention best practices
                  for these staff. This occurs because OMB approved NRC‘s 2012
                  acquisition human capital plan,6 which did not include details about staff
                  training. Without institutionalized best practices, NRC faces challenges in
                  training and retaining specialized IT acquisition professionals.

                  NRC Does Not Include All Data Centers in Consolidation Plans

                  Action Item 1 of the 25-Point Plan directs Federal agencies to comply with
                  the Consolidation Initiative, which requires Federal agencies to inventory
                  their data center assets and develop data center consolidation plans.
                  However, NRC has limited its data center count to three headquarters
                  facilities, excluding data centers in its regional offices and Technical



6
  Each Federal agency covered by the Chief Financial Officers Act is required to develop an annual
Acquisition Human Capital Plan as a means to improve the strategic management of the agency‘s
acquisition workforce. A template developed by OMB‘s Office of Federal Procurement Policy and the
Federal Acquisition Institute is used to gather information about each agency‘s acquisition workforce.


                                                             iv
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  Training Center. This has occurred because OMB has promulgated
                  different definitions of ―data center,‖ and NRC has interpreted OMB
                  guidance to exclude regional data centers. Without a complete data
                  center count, NRC may miss opportunities to identify potential cost
                  savings that could be realized through expanding its data center
                  consolidation efforts.

                  NRC Did Not Perform Alternatives Analysis for the 3WFN Data Center

                  Federal guidance instructs agencies to consider alternatives to in-house
                  data hosting when formulating data center consolidation plans. NRC built
                  a new data center in the Three White Flint North building (3WFN) to
                  consolidate some headquarters data centers, but did not perform an
                  alternatives analysis prior to undertaking the project. NRC staff did not
                  perform an alternatives analysis to include external hosting for the 3WFN
                  data center because senior management had committed to moving
                  existing data centers to 3WFN early in the planning phase. As result, the
                  3WFN data center was built with extra capacity that may not be used.

         Recommendations

                  This report makes four recommendations to improve the agency‘s plan to
                  reform its information technology management. A consolidated list of
                  these recommendations appears in Section IV of this report.


AGENCY COMMENTS

                  An exit conference was held with the agency on December 18, 2012. At
                  this meeting, agency management stated their general agreement with the
                  findings and recommendations in this report and opted not to provide
                  formal comments for inclusion in this report.




                                                             v
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




ABBREVIATIONS AND ACRONYMS

                  CIO                 Chief Information Officer
                  FY                  Fiscal Year
                  IT                  Information Technology
                  IT Board            Information Technology/Information Management Board
                  NRC                 Nuclear Regulatory Commission
                  OIG                 Office of the Inspector General
                  OIS                 Office of Information Services
                  OMB                 Office of Management and Budget
                  3WFN                Three White Flint North




                                                             vi
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




TABLE OF CONTENTS

EXECUTIVE SUMMARY.................................................................................................. i

ABBREVIATIONS AND ACRONYMS ............................................................................. vi

I.       BACKGROUND .................................................................................................... 1

II.      OBJECTIVE ......................................................................................................... 3

III.     FINDINGS ............................................................................................................ 3

         A. NRC DOES NOT REVIEW PERFORMANCE OF NON-MAJOR IT
            INVESTMENTS, AS DEFINED BY OMB ........................................................ 4

         B. NRC HAS SPECIALIZED IT ACQUISITION PROFESSIONALS, BUT
            HAS NOT INSTITUTIONALIZED CURRENT TRAINING AND RETENTION
            BEST PRACTICES ......................................................................................... 7

         C. NRC DOES NOT INCLUDE ALL DATA CENTERS IN
            CONSOLIDATION PLANS ............................................................................ 11

         D. NRC DID NOT PERFORM ALTERNATIVES ANALYSIS FOR THE
            3WFN DATA CENTER .................................................................................. 13

IV.      CONSOLIDATED LIST OF RECOMMENDATIONS........................................... 16

V.       AGENCY COMMENTS ...................................................................................... 17

APPENDIX

         A. OBJECTIVE, SCOPE AND METHODOLOGY .............................................. 18




                                                             vii
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




I. BACKGROUND

                  The U.S. Nuclear Regulatory Commission (NRC) invests in a broad range
                  of information technology (IT) products and services to perform its
                  mission. Some IT investments support business activities such as
                  financial, administrative, and human resource management. Others
                  support core regulatory activities related to nuclear security, reactor
                  safety, and nuclear materials and waste safety. In addition, investments
                  such as IT security and infrastructure services support activities across
                  NRC‘s organizational lines. Despite rapidly changing IT security threats
                  and increased reliance on IT to accomplish the agency‘s mission, NRC
                  faces the Governmentwide challenge of declining budgets. For example,
                  NRC spent $164.7 million on IT in Fiscal Year (FY) 2011, but has
                  budgeted $151.4 million for IT in FY 2013—a decline of approximately 8
                  percent.

                  As a representative of the Office of Management and Budget (OMB), the
                  U.S. Chief Information Officer (CIO) has encouraged NRC and other
                  Federal agencies to ―do more with less.‖ In December 2010, the U.S. CIO
                  promulgated the ―25 Point Implementation Plan to Reform Federal
                  Information Technology Management‖ (25-Point Plan).7 The 25-Point
                  Plan tasked NRC and other agencies with undertaking specific
                  management reforms and policy changes within 6-, 12-, and 18-month
                  timeframes.8 NRC—by itself or in conjunction with other Federal agencies
                  and OMB—was responsible for carrying out the following 10 action items:

                            Action Item 1: Complete detailed implementation plans to
                            consolidate 800 data centers by 2015.

                            Action Item 3: Shift to a ―Cloud First‖9 policy.


7
 For a complete list and indepth discussion of these initiatives, reference the ―25 Point Implementation
Plan to Reform Federal Information Technology Management,‖ U.S. Chief Information Officer, December
9, 2010.
8
 The 25-Point Plan assigns responsibility for some initiatives to the General Services Administration,
Small Business Administration, Office of Personnel Management, and OMB.
9
  ―Cloud‖ computing aims to enable convenient, on-demand access to a shared pool of computing
resources such as networks, servers, applications, storage, and services. The National Institute of
Standards and Technology identifies the following essential cloud features: on-demand service, broad
network access, resource pooling, rapid elasticity, and measured service.

                                                             1
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                            Action Item 8: Scale IT program management career path.

                            Action Item 13: Design and develop a cadre of specialized IT
                            acquisition professionals.

                            Action Item 17: Work with Congress to create IT budget models
                            that align with modular development.

                            Action Item 19: Work with Congress to scale flexible IT budget
                            models more broadly.

                            Action Item 20: Work with Congress to consolidate commodity IT10
                            spending under the agency CIO.

                            Action Item 21: Reform and strengthen Investment Review Boards.

                            Action Item 22: Redefine the role of agency CIO and the Federal
                            CIO Council.

                            Action Item 23: Roll out ―TechStat‖11 model at the bureau level.

                  NRC Organizations Responsible for Carrying Out the 25-Point Plan

                  Several offices have participated in responding to 25-Point Plan action
                  items. NRC‘s Office of Information Services (OIS) has played an active
                  role, particularly in response to action items focused on IT infrastructure
                  planning and budgeting. The Office of Administration has played a role in
                  action items pertaining to contracting and acquisitions. Lastly, NRC‘s
                  Deputy Executive Director for Corporate Management serves as the
                  agency‘s Chief Information Officer, and oversees the agency‘s IT strategic
                  planning.




10
  ―Commodity IT‖ refers to generic products and services such as e-mail, content management systems,
and Web infrastructure.
11
  ―TechStat‖ reviews are evidence-based evaluations designed to identify IT program weaknesses and
develop plans for improvement. TechStat reviews can also help identify failed IT programs for early
termination.

                                                             2
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




II. OBJECTIVE

                  The audit objective was to evaluate NRC‘s progress in carrying out the ―25
                  Point Implementation Plan to Reform Federal Information Technology
                  Management.‖ Appendix A contains information on the audit scope and
                  methodology.



III. FINDINGS

                  OIG auditors evaluated NRC‘s performance in carrying out the 10 action
                  items for which the agency was responsible. Based on this work, auditors
                  concluded that NRC had met its obligations for these action items, but
                  developed findings and recommendations to improve the agency‘s IT
                  management in areas related to the following three action items:

                  Action Item 21 (IT Investment Review Boards) Finding:

                             NRC Does Not Review Performance of Non-Major IT
                              Investments, as Defined by OMB.

                  Action Item 13 (IT acquisition cadres) Finding:

                             NRC Has Specialized IT Acquisition Professionals, but Has Not
                              Institutionalized Current Training and Retention Best Practices.

                  Action Item 1 (Data center consolidation) Findings:

                             NRC Does Not Include All Data Centers in Consolidation Plans.

                             NRC Did Not Perform Alternatives Analysis for the 3WFN Data
                              Center.

                  Background information explaining each action item appears at the start of
                  each action item finding section of this report.




                                                             3
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  Background for Action Item 21 Finding: IT Investment Review Boards

                  Action Item 21 of the 25-Point Plan directs Federal agencies to reform and
                  strengthen IT Investment Review Boards, which were created to control
                  and evaluate the results of major IT investments. However, according to
                  OMB, Investment Review Boards have failed to establish successful IT
                  programs and correct unsuccessful ones because the review process has
                  focused on short, broad-based reviews of each Federal agency‘s entire IT
                  investment portfolio. To remedy this, OMB has required Federal agencies
                  to implement the ―TechStat‖ model at the agency level. TechStat reviews
                  entail indepth analysis of IT investments to measure their performance
                  and identify corrective actions if needed. OMB expects this approach to
                  improve agencies‘ IT performance management, expedite intervention in
                  failing IT programs, and focus OMB‘s attention on a limited number of
                  highest-priority cases.

                  NRC has two Investment Review Boards that help the agency manage IT
                  investment. The Information Technology Executive Portfolio Council
                  (Portfolio Council) includes seven NRC office directors and is co-chaired
                  by NRC‘s Chief Information Officer and Chief Financial Officer. The
                  Information Technology/Information Management Board (IT Board)
                  includes representatives from OIS, the Computer Security Office, and
                  NRC program offices.

                  A. NRC Does Not Review Performance of Non-Major IT Investments,
                     as Defined by OMB

                  OMB has directed Federal agencies to apply the TechStat model to review
                  performance of IT investments. NRC has implemented TechStat, but only
                  uses it to review major IT investments as defined by OMB. NRC does not
                  apply the TechStat model to non-major IT investments because the
                  agency has recently restructured its Investment Review Boards, and the
                  initial TechStat focus has been placed on major IT investments, which are
                  fewer in number and higher in total value than non-major IT investments.
                  Consequently, without reviewing non-major IT investments, NRC may
                  miss opportunities to improve performance and cost-effectiveness of these
                  investments.




                                                             4
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  Federal Agencies Are To Apply the TechStat Model to Review
                  Performance of IT Investments

                  OMB has directed Federal agencies to apply the TechStat model to review
                  performance of IT investments. To facilitate this, OMB has provided
                  guidance for conducting TechStat reviews. Federal agencies have some
                  flexibility in selecting IT investments for review, but OMB guidance states
                  that agencies should select investments for review based on data from
                  agency performance management systems, congressional testimony, and
                  other information sources.

                  NRC Has Implemented TechStat, but Only Reviews Major IT Investments

                  NRC has implemented TechStat, but only reviews major IT investments.
                  OMB defines a major investment as follows:

                            Major IT Investment means a program requiring
                            special management attention because of its
                            importance to the mission or function of the agency,
                            a component of the agency, or another organization;
                            has significant program or policy implications; has high
                            executive visibility; has high development, operating,
                            or maintenance costs; is funded through other than
                            direct appropriations; or is defined as major by the
                            agency‘s capital planning and investment control
                            process. OMB may work with the agency to declare
                            other investments as major investments…Investments
                            not considered ‗major‘ are ‗non-major.‘

                  NRC considers nine of its IT systems as major investments, and these
                  investments account for approximately 72 percent of NRC‘s estimated
                  $151 million FY 2013 IT budget. Not included in NRC‘s TechStat reviews
                  are 23 non-major investments, which account for approximately 28
                  percent of the agency‘s IT spending.




                                                             5
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  NRC Has Restructured Investment Review Boards, and Initial Focus Has
                  Been on Major IT Investments

                  NRC does not apply the TechStat model to non-major IT investments
                  because the agency has recently restructured its Investment Review
                  Boards, and the initial TechStat focus has been placed on major IT
                  investments, which are fewer in number and higher in total value than
                  non-major IT investments. NRC created a Portfolio Council and an IT
                  Board in early 2012 to replace existing IT governance organizations, and
                  each was created with new charters. The Portfolio Council is tasked with
                  approving major IT investments. The IT Board, which is composed of
                  representatives from OIS and other NRC offices, supports the Portfolio
                  Council and reviews the performance of major IT investments. Non-major
                  IT investments do not fall under the purview of these new organizations as
                  described in their charters.

                  Without Reviewing Non-Major IT Investments, NRC May Miss
                  Opportunities To Improve Performance

                  Without reviewing non-major IT investments, NRC may miss opportunities
                  to improve the performance and cost-effectiveness of these investments.
                  Though it is prudent to scrutinize high-dollar-value programs, NRC‘s 23
                  non-major investments collectively compose approximately one-quarter of
                  NRC‘s IT spending. NRC staff who are responsible for IT planning
                  expressed concern to OIG about the lack of management visibility over
                  non-major IT investments. Given the fiscal constraints NRC faces and the
                  resulting pressure on IT budgets, NRC could benefit significantly from
                  cost-effectiveness improvements in multiple non-major investments.
                  Savings from improved or terminated non-major IT investments could be
                  used to support higher priority IT investments.

                  Recommendation

                  OIG recommends that the Executive Director for Operations:

                            1. Review non-major IT investments in applying the TechStat
                               model.




                                                             6
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  Background for Action Item 13 Finding: Development of Specialized
                  IT Acquisition Cadres

                  Action Item13 of the 25-Point Plan calls for Federal agencies to design
                  and develop cadres of specialized IT acquisition professionals. According
                  to OMB, the lag time between when the Federal Government defines its IT
                  requirements and when the contractor actually delivers the required IT
                  product may allow technology to change substantially. Consequently,
                  Federal IT acquisitions may become outdated by the time they are
                  implemented. To address this problem, OMB directed Federal agencies
                  to design and develop a cadre of specialized IT acquisition professionals
                  by strengthening staff IT acquisition skills through classroom training, on-
                  the-job experience, and mentorship. By strengthening skills of IT
                  acquisition staff, OMB expects Federal agencies to expedite complex IT
                  acquisitions.

                  In July 2011, OMB released guidance on designing and developing a
                  cadre of specialized IT acquisition professionals. The guidance describes
                  how agencies can design and organize a cadre of contracting
                  professionals, program managers, and contracting officer representatives
                  to ensure their functions work closely together throughout the contracting
                  process to achieve program goals. The OMB guidance also describes
                  how agencies can strengthen the skills and capabilities of staff in their
                  specialized acquisition cadres. Furthermore, the guidance requires senior
                  agency managers to work with each other to create strategies and best
                  practices in recruiting and retaining IT acquisition professionals.

                  B. NRC Has Specialized IT Acquisition Professionals, but Has Not
                     Institutionalized Current Training and Retention Best Practices

                  OMB has directed Federal agencies to design and develop a cadre of
                  specialized IT acquisition professionals by providing specific training, on
                  the job experience, and mentoring. Although NRC has a branch of IT
                  acquisition specialists who are encouraged to pursue training in this field,
                  NRC has not institutionalized current training and retention best practices
                  for these staff. This occurs because OMB approved NRC‘s 2012




                                                             7
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  acquisition human capital plan,12 which did not include details about staff
                  training. Without institutionalized best practices, NRC faces challenges in
                  training and retaining specialized IT acquisition professionals.

                  Federal Agencies Are To Design and Develop a Cadre of IT Acquisition
                  Professionals

                  OMB has directed Federal agencies to design and develop a cadre of IT
                  acquisition professionals by providing specific training, on the job
                  experience, and mentoring. Additional guidance released by OMB in July
                  2011 specifically required that agencies‘ senior managers13 work with
                  each other in developing strategies and best practices for recruiting and
                  retaining IT acquisition professionals.

                  NRC Has a Cadre of IT Acquisition Professionals, but Has Not
                  Institutionalized Training and Retention Best Practices

                  Although NRC has a branch of IT acquisition specialists who are
                  encouraged to pursue training in this field, NRC has not institutionalized
                  current training and retention best practices for these staff. Contract
                  specialists rotate within their division to gain exposure to different types of
                  contracting, while taking contracting coursework to obtain Federal
                  acquisition certification in contracting.14 The first level of certification does
                  not require specialization such as IT acquisition. Additionally, contract
                  specialists working in IT acquisition can take elective coursework and
                  attend IT conferences that are geared towards IT acquisition
                  specialization, yet this training is not required. Although NRC has
                  implemented mentoring, on-the-job training, and other human resource
                  practices to develop IT acquisition staff, NRC officials acknowledged that
                  these best practices have not been formalized in their office policy.



12
  Each Federal agency covered by the Chief Financial Officers Act is required to develop an annual
Acquisition Human Capital Plan as a means to improve the strategic management of the agency‘s
acquisition workforce. A template developed by OMB‘s Office of Federal Procurement Policy and the
Federal Acquisition Institute is used to gather information about each agency‘s acquisition workforce.
13
  These senior managers include the Chief Acquisition Officer, Chief Information Officer, and Chief
Human Capital Officer.
14
  Federal Acquisition Certification – Contracting (FAC – C) has three levels. Each level is attainable
through educational content and work experience in Government contracting.


                                                             8
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  OMB Approved NRC‘s Human Capital Plan, Which Did Not Include Details
                  About Staff Training

                  NRC has not institutionalized training and retention best practices
                  because OMB approved NRC‘s human capital plan, which did not include
                  details about staff training. In March 2012, NRC submitted its annual
                  Acquisition Human Capital Plan for 2012 to OMB, but the document had
                  no specific description of plans to train and retain IT acquisition
                  professionals. NRC staff stated that guidance from OMB did not specify
                  requirements for formalized training of IT acquisition staff, and that nothing
                  in OMB guidance implicitly or explicitly suggested it. OIG auditors did not
                  find any information suggesting that OMB provided feedback or followup
                  guidance for cultivating cadres of dedicated IT acquisition professionals.

                  Without Institutionalizing Current Best Practices, NRC Faces Challenges
                  in Training and Retaining IT Acquisition Staff

                  NRC is pursuing an aggressive strategic acquisition initiative, and will
                  need highly skilled acquisition professionals to support its efforts. Without
                  an institutionalized development program for IT acquisition professionals,
                  NRC faces challenges in training and retaining qualified personnel to
                  provide these services. It would be prudent to formalize current best
                  practices for staff training so that best practices can be sustained in the
                  face of potential pressure from management changes or resource
                  constraints. Additionally, developing and retaining staff with expertise in
                  IT acquisition is especially important as NRC relies increasingly on IT to
                  carry out its mission.

                  Recommendation

                  OIG recommends that the Executive Director for Operations:

                            2. Incorporate into existing policy procedures for developing IT
                            acquisition professionals, to include training courses, on-the-job-
                            experience, and mentoring based on OMB guidance.




                                                             9
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  Background for Action Item 1 Findings: Data Center Consolidation

                  Action Item 1 of the 25-Point Plan calls for agencies to complete detailed
                  data center consolidation plans in accordance with the Federal Data
                  Center Consolidation Initiative (the Consolidation Initiative). In February
                  2010, OMB launched the Consolidation Initiative and issued guidance for
                  Federal CIO Council15 agencies. The guidance called for agencies to
                  inventory their data center assets, develop consolidation plans throughout
                  FY 2010, and integrate those plans into their FY 2012 budget
                  submissions.

                  The Consolidation Initiative is aimed at assisting agencies in identifying
                  their existing data center assets and formulating detailed consolidation
                  plans that include a technical roadmap and clear consolidation targets.
                  This effort aims to reduce the number of data centers across the Federal
                  Government and assist agencies in applying best practices from the public
                  and private sector, with goals to:

                            • Promote the use of ―Green IT‖ by reducing the overall energy and
                            real estate footprint of Federal Government data centers.

                            • Reduce the cost of data center hardware, software, and
                            operations.

                            • Increase the overall IT security posture of the Government.

                            • Shift IT investments to more efficient computing platforms and
                            technologies.

                  In its reports to OMB, NRC counts three data centers located in the
                  agency‘s headquarters complex. NRC has built an additional data center
                  inside a new headquarters building, which the agency will use to
                  consolidate offices that are spread across multiple facilities. The new data
                  center includes controls to monitor and adjust temperature, lighting, and




15
   The Federal CIO Council is the principal interagency forum to improve agency practices
on such matters as the design, modernization, use, sharing, and performance of agency
information resources.

                                                            10
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  electricity use. In addition to building a more energy efficient data center,
                  NRC is working to reduce data center power consumption through server
                  virtualization.16

                  One alternative to hosting data centers at an agency‘s facilities is external
                  hosting. The 25-Point Plan directs Federal agencies to explore external
                  hosting options through ―Cloud First‖ policies,17 according to which
                  agencies outsource data processing to a commercial service provider or to
                  another Federal agency with the capability to act as a ―cloud‖ service
                  provider.

                  C. NRC Does Not Include All Data Centers in Consolidation Plans

                  Action Item 1 of the 25-Point Plan directs Federal agencies to comply with
                  the Consolidation Initiative, which requires Federal agencies to inventory
                  their data center assets and develop data center consolidation plans.
                  However, NRC has limited its data center count to three headquarters
                  facilities, excluding data centers in its regional offices and Technical
                  Training Center. This has occurred because OMB has promulgated
                  different definitions of ―data center,‖ and NRC has interpreted OMB
                  guidance to exclude regional data centers. Without a complete data
                  center count, NRC may miss opportunities to identify potential cost
                  savings that could be realized through expanding its data center
                  consolidation efforts.

                  OMB‘s Data Center Consolidation Initiative Requires Federal Agencies To
                  Provide a Count of All Data Centers They Host

                  Action Item 1 of the 25-Point Plan directs Federal agencies to comply with
                  the Consolidation Initiative, which requires Federal agencies to inventory
                  their data center assets and develop data center consolidation plans. The
                  Consolidation Initiative‘s first data center definition in October 2010 was
                  ―any room greater than 500 square feet in area devoted to data
                  processing, and meeting a tier (I, II, III, & IV) classification defined by the



16
  Virtualization is a technology that uses software to run multiple virtual machines with different operating
systems on a single physical server.
17
  Adopting ―Cloud First‖ policies is Action Item 3 of the 25-Point Plan. To comply with this action item,
NRC has adopted cloud-based capital planning software, teleconferencing service, and emergency
notification service.

                                                            11
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  Uptime Institute.‖18 This guidance was supplemented by data center
                  consolidation planning guides and templates, as well as a ―Frequently
                  Asked Questions‖ document that expanded the data center definition to
                  include server closets greater than 200 square feet, scientific and test lab
                  servers, and field office data centers. OMB updated its data center
                  inventory guidance March 2012 to eliminate the square footage metric,
                  and include any ―closet, room, floor or building for the storage,
                  management, and dissemination of data and information.‖19

                  NRC Has Limited Its Data Center Count to Headquarters Facilities

                  In NRC‘s annual reports to OMB on Consolidation Initiative compliance,
                  NRC has limited its data center count to three headquarters facilities.
                  NRC has not counted data centers located at its regional offices and its
                  Technical Training Center.

                  NRC Interpretation of OMB Guidance Has Limited NRC‘s Data Center
                  Count

                  NRC has counted only three headquarters data centers in its reports to
                  OMB because OMB has promulgated different definitions of ―data center,‖
                  and NRC has interpreted OMB guidance to exclude regional data centers.
                  As noted above, OMB has defined ―data center‖ at least two different
                  ways, and initial 2010 criteria were supplemented by multiple guidance
                  documents that added more detail to these criteria. In their interpretation
                  of OMB‘s guidance, NRC staff told OIG auditors that OMB‘s intent was
                  presumed to include only three main headquarters data centers that run
                  ―enterprise-wide‖ applications.

                  Without Complete Data Center Count, NRC May Not Identify Potential
                  Cost Savings

                  Without a complete data center count, NRC may miss opportunities to
                  identify potential cost savings that could be realized through expanding its


18
  The Uptime Institute is an organization that develops technical standards for data center operations.
Tier I-IV ratings reflect various elements of a data center‘s infrastructure that allow it to maintain
operations. Tier IV—the highest rating—refers to data centers with capabilities to withstand unplanned,
worst-case infrastructure failure with no critical load impact.
19
  This definition excludes spaces devoted exclusively to communications and network equipment, such
as telecommunications rooms.

                                                            12
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  data center consolidation efforts. Indeed, one of the main objectives of
                  the Consolidation Initiative is to reduce the number of data centers
                  operated by Federal agencies as means to reduce costs and adopt more
                  efficient computing platforms. Facility consolidation and server
                  virtualization offer potential efficiencies, but NRC staff cannot measure the
                  costs and benefits of these alternatives—and make well-informed plans
                  for the future—without an accurate analysis of its data center inventory.

                  Recommendation

                  OIG recommends that the Executive Director for Operations:

                            3. Include all NRC data center infrastructure as currently defined
                               by OMB in data center consolidation planning and reporting to
                               OMB.

                  D. NRC Did Not Perform Alternatives Analysis for the 3WFN Data
                     Center

                  Federal guidance instructs agencies to consider alternatives to in-house
                  data hosting when formulating data center consolidation plans. NRC built
                  a new data center in the Three White Flint North building (3WFN) to
                  consolidate some headquarters data centers, but did not perform an
                  alternatives analysis prior to undertaking the project. NRC staff did not
                  perform an alternatives analysis to include external hosting for the 3WFN
                  data center because senior management had committed to moving
                  existing data centers to 3WFN early in the planning phase. As result, the
                  3WFN data center was built with extra capacity that may not be used.

                  Agencies Should Consider Alternatives to In-House Data Hosting When
                  Formulating Data Center Consolidation Plans

                  Federal guidance instructs agencies to consider alternatives to in-house
                  data hosting when formulating data center consolidation plans.
                  Consolidation Initiative implementation guidance20 issued by the Federal
                  CIO Council explicitly states this principle, and adds that agencies should

20
  In February 2010, the Administration launched the Federal Data Center Consolidation Initiative
(FDCCI) and issued guidance for Federal CIO Council agencies. The guidance called for agencies to
inventory their data center assets, develop consolidation plans throughout fiscal year 2010, and integrate
those plans into agency fiscal year 2012 budget submissions.


                                                            13
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  maximize departmentwide services, interagency sharing, co-location and
                  virtualization if ―in-house‖ solutions are deemed necessary for
                  performance or security reasons. Moreover, the Clinger-Cohen Act of
                  1996 requires Federal agencies to analyze IT investments to help
                  maximize the value and manage the risk of these investments.

                  NRC Did Not Perform Alternatives Analysis for New Data Center

                  NRC built a new data center in 3WFN to consolidate some headquarters
                  data centers, but did not perform an alternatives analysis prior to
                  undertaking the project. In 2010, NRC staff provided the Commission with
                  a cost estimate for including a data center in the 3WFN office building, and
                  a contractor performed a data center construction cost estimate before
                  3WFN building plans were available. However, neither of these estimates
                  were based upon actual building plans, nor did they examine alternatives
                  to in-house data hosting. Then, in early 2012—more than 2 years after
                  NRC had committed to moving its data center to 3WFN—NRC undertook
                  an alternatives analysis that included market research of various data
                  hosting options. Figure 3 shows a section of the 3WFN data center at one
                  point during construction.

Figure 3: New Data Center Construction in Progress




Source: NRC.

                                                            14
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  NRC Senior Management Committed to New Data Center Without
                  Alternatives Analysis

                  NRC staff did not perform an alternatives analysis that included external
                  hosting for the 3WFN data center because senior management had
                  committed to moving existing data centers to 3WFN early in the project
                  planning phase. NRC signed a lease with the General Services
                  Administration in October 2009 for the new 3WFN building,21 and NRC
                  staff subsequently analyzed costs of building a data center in 3WFN.
                  Based on this analysis, the Commission approved $12.5 million for design
                  and construction of a new data center in 3WFN, and directed staff to
                  complete NRC‘s move into the new data center in FY 2013.

                  NRC 3WFN Data Center Was Built With Spare Capacity

                  The 3WFN data center was built with spare capacity that may not be used.
                  The new data center was built with infrastructure to accommodate up to
                  184 server racks if needed,22 which includes additional electrical and
                  cooling systems. NRC currently plans to use 90 server racks, and is
                  considering alternatives to in-house data hosting that would eliminate the
                  need to nearly double its physical server count. Emerging budget and
                  space usage constraints bear heavily on NRC‘s data center consolidation
                  plans, so careful analysis of alternatives to in-house data hosting will be
                  particularly important in adopting the most cost-effective solution to NRC‘s
                  data center needs.

                  Recommendation

                  OIG recommends that the Executive Director for Operations:

                            4. Create short- and long-term plans for the 3WFN data center, to
                            include review of external hosting options and cloud computing
                            service providers per OMB guidance.




21
  This lease calls for construction of an office building with infrastructure such as heating, plumbing,
electricity, and fire suppression. NRC was responsible for additional ―tenant improvements‖ such as a
data center.
22
  NRC built additional server infrastructure into the 3WFN data center to avoid renovation costs in case
extra server capacity became necessary at some point in the future.

                                                            15
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




IV. Consolidated List of Recommendations

                  OIG recommends that the Executive Director for Operations:

                            1. Review non-major IT investments in applying the TechStat
                            model.

                            2. Incorporate into existing policy procedures for developing IT
                            acquisition professionals, to include training courses, on-the-job-
                            experience, and mentoring based on OMB guidance.

                            3. Include all NRC data center infrastructure as currently defined
                            by OMB in data center consolidation planning and reporting to
                            OMB.

                            4. Create short- and long-term plans for the 3WFN data center, to
                            include review of external hosting options and cloud computing
                            service providers per OMB guidance.




                                                            16
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




V. AGENCY COMMENTS

An exit conference was held with the agency on December 18, 2012. At this meeting,
agency management stated their general agreement with the findings and
recommendations in this report and opted not to provide formal comments for inclusion
in this report.




                                                            17
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                                                                                                            Appendix A
OBJECTIVE, SCOPE, AND METHODOLOGY

                  OBJECTIVE

                  The audit objective was to evaluate NRC‘s progress in carrying out the ―25
                  Point Implementation Plan to Reform Federal Information Technology
                  Management.‖

                  SCOPE

                  The audit reviewed NRC‘s activities related to 25-Point Plan action items
                  for which the agency was responsible, with special emphasis on IT
                  investment review boards, IT acquisition cadres, and data center
                  consolidation. OIG conducted this performance audit from April 2012
                  through October 2012 at NRC headquarters in Rockville, MD. To address
                  the audit objective, OIG auditors conducted multiple interviews of NRC
                  staff representing the Office of Information Services, Computer Security
                  Office, and Office of Administration. Auditors also conducted interviews
                  with staff representing NRC‘s regional offices.

                  METHODOLOGY

                  OIG reviewed the ―25 Point Implementation Plan to Reform Federal
                  Information Technology Management,‖ and other pertinent NRC and
                  Federal Government guidance including:

                                 NRC IT Investment Review Board charters and TechStat
                                 documentation.
                                 OMB cloud computing guidance.
                                 OMB Office of Federal Procurement Policy guidance.
                                 OMB Federal Data Center Consolidation Initiative guidance.
                                 OMB Chief Information Officer authorities guidance.
                                 OMB Circular A-130.
                                 Federal CIO Council best practice and lessons learned
                                 documents.

                  OIG also analyzed documents used in planning and budgeting for NRC‘s
                  3WFN data center, and a data center services alternative analysis study.


                                                            18
Audit of NRC‘s Progress in Carrying Out the ―25 Point Implementation Plan to Reform Federal Information Technology Management




                  We conducted this performance audit in accordance with generally
                  accepted government auditing standards. Those standards require that
                  we plan and perform the audit to obtain sufficient, appropriate evidence to
                  provide a reasonable basis for our findings and conclusions based on our
                  audit objective. We believe that the evidence obtained provides a
                  reasonable basis for our findings and conclusions based on our audit
                  objective.

                  The audit work was conducted by Beth Serepca, Team Leader; Paul
                  Rades, Audit Manager; Melissa Schermerhorn, Senior Analyst; and
                  Avinash Jaigobind, Analyst.




                                                            19
